App. 1
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-----------------------------------------------------------------------

No. 18-1693
-----------------------------------------------------------------------

KAYLA BUTTS, Individually and on
behalf of her daughter A.F., a minor,
Plaintiff - Appellee,
v.
THE UNITED STATES OF AMERICA,
Defendant - Appellant,
and
BERKELEY MEDICAL CENTER; WEST VIRGINIA
UNIVERSITY HOSPITAL, INC.; SHENANDOAH
WOMEN’S HEALTH CENTER; SHENANDOAH
COMMUNITY HEALTH CENTER; SHENANDOAH
MIDWIVES; AVINASH PUROHIT, M.D.; TRACY
SWALM, CNM; SARA SPURGEON, R.N.; SHELLY
PALKOVIC, R.N.; REBECCA PFENDER, CNM;
SARAH HARDY, M.D.; SONYA JUSTICE, R.N.,
Defendants.
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Northern District of West Virginia, at Martinsburg.
Gina M. Groh, Chief District Judge. (3:16-cv-00053-GMGMJA)
-----------------------------------------------------------------------

App. 2
Argued: May 7, 2019

Decided: July 11, 2019

-----------------------------------------------------------------------

Before HARRIS, RICHARDSON and QUATTLEBAUM,
Circuit Judges.
-----------------------------------------------------------------------

Reversed by published opinion. Judge Quattlebaum
wrote the opinion, in which Judge Harris and Judge
Richardson joined.
-----------------------------------------------------------------------

ARGUED: Joshua Marc Salzman, UNITED STATES
DEPARTMENT OF JUSTICE, Washington, D.C., for
Appellant. Barry John Nace, PAULSON & NACE,
PLLC, Washington, D.C., for Appellee. ON BRIEF:
Joseph H. Hunt, Assistant Attorney General, Mark B.
Stern, Civil Division, UNITED STATES DEPARTMENT OF JUSTICE, Washington, D.C.; William J.
Powell, United States Attorney, OFFICE OF THE
UNITED STATES ATTORNEY, Wheeling, West Virginia, for Appellant. Matthew A. Nace, PAULSON &
NACE, PLLC, Washington, D.C.; D. Michael Burke,
BURKE, SCHULTZ, HARMAN & JENKINSON, Martinsburg, West Virginia, for Appellee.
QUATTLEBAUM, Circuit Judge:
This case arises from a tragic set of events involving A.F., a baby born with severe respiratory problems
who developed permanent brain damage. Kayla Butts
(“Butts”), A.F.’s mother, brought this action claiming A.F.’s brain damage was caused by the medical

App. 3
malpractice of Dr. Sarah Hardy. More specifically,
Butts contends that Dr. Hardy should have transferred
A.F. from the hospital where A.F. was born to a hospital
with a neonatal intensive care unit (“NICU”) that
could have provided the care A.F. needed in the hours
after her birth. After a bench trial, the district court
agreed and awarded Butts over seven million dollars
in damages. On appeal, we consider whether Butts presented sufficient evidence to establish that Dr. Hardy
violated the applicable standard of care. Because the
district court’s finding on this issue was clearly erroneous, we reverse the district court’s order and vacate the
judgment against Dr. Hardy.
I.
Butts delivered A.F. at Berkeley Medical Center
(“Berkeley”) in Martinsburg, West Virginia. Berkeley
did not have a NICU, so infants who required additional support were cared for in Berkeley’s “Max Care
Nursery.” The Max Care Nursery offered specialized
care to newborn infants, including an oxygen-delivery
system and equipment to provide intubation. However,
the Max Care Nursery did not have all the equipment
found in a NICU, including a breathing device known
as a continuous positive airway pressure (“CPAP”) machine. Infants delivered at Berkeley who needed specialized care Berkeley could not provide were often
transported to the NICU at Winchester Medical Center (“Winchester”) in Virginia.

App. 4
At the time of these events, Berkeley was working
to establish a NICU of its own. To that end, Berkeley
hired Dr. Avinash Purohit, a board-certified neonatologist, to establish and manage a NICU. But Dr. Purohit
arrived at Berkeley only a few days before A.F.’s birth
and had not yet established a NICU.
A.F. was born at Berkeley around 9:00 a.m. and
immediately exhibited signs of respiratory distress.
In the minutes following delivery, A.F.’s Apgar score
—a diagnostic tool that allows a physician to evaluate
a child’s physical health by measuring breathing effort, heart rate, muscle tone, reflexes and skin color—
was low. Nurses provided immediate treatment to aid
A.F.’s breathing, including suctioning A.F.’s airway. Ten
minutes after birth, A.F.’s Apgar score had improved,
but, because of these initial complications, she was
transferred to Berkeley’s Max Care Nursery.
Dr. Hardy, a pediatrician, was on call the morning
of A.F.’s birth. Soon after A.F. was delivered, the hospital paged Dr. Hardy, and she arrived around 9:15 a.m.
Dr. Hardy noticed A.F.’s respiratory distress and low
glucose levels. She prescribed antibiotics to prevent infection and ordered a range of tests and diagnostics to
assess A.F.’s breathing problems. Dr. Hardy also placed
A.F. under an oxyhood, a device that provides supplemental oxygen.
Dr. Hardy then returned to her office for a few
hours, while maintaining telephone contact with the attending nurse. While she was away, A.F., with the aid of
the oxyhood, maintained acceptable oxygen-saturation

App. 5
levels, but continued to experience breathing difficulty. Dr. Hardy came back to Berkeley around noon.
At that time, A.F. was not improving. For that reason,
Dr. Hardy initially decided to transfer A.F. to the Winchester NICU. However, a nurse manager at Berkeley
suggested that Dr. Hardy consult Dr. Purohit prior to
transfer. Dr. Hardy consulted with Dr. Purohit around
1:30 p.m. that afternoon. Dr. Purohit assured Dr.
Hardy that Berkeley had the necessary equipment and
staffing for him to provide care to A.F., and he specifically told Dr. Hardy that a transfer to the Winchester
NICU was unnecessary. After that discussion, Dr. Purohit agreed to take A.F. on as his patient.
After taking over A.F.’s care, Dr. Purohit ordered
tests and altered A.F.’s treatments. While there is some
dispute as to whether Dr. Hardy complied with Berkeley’s internal procedures for completing a formal transfer of responsibility for A.F.’s care to Dr. Purohit, the
district court assumed that Dr. Hardy’s responsibility
for A.F. terminated at 2:45 p.m.
Over the next twenty-four hours, A.F.’s condition
continued to deteriorate. Ultimately, on the afternoon
of the day following A.F.’s birth, Dr. Purohit ordered
her to be transferred to the NICU at Winchester. A.F.
remained there for nearly a month. While the parties
dispute the timing and cause, there is no dispute A.F.
suffered irreversible brain injury from the insufficient
flow of oxygenated blood to her brain.
As a result of A.F.’s injuries, Butts sued multiple
defendants including Berkeley, Dr. Purohit and Dr.

App. 6
Hardy alleging medical malpractice. Because Dr.
Hardy was employed by a federally-funded hospital,
the United States substituted itself on behalf of Dr.
Hardy under the Federal Tort Claims Act (FTCA),
28 U.S.C. §§ 1346(b), 2671-2680. Prior to trial, all defendants except the United States settled with Butts.
Butts’s claim against the United States proceeded
to a bench trial. After the trial, the district court issued
findings in favor of Butts. The district court concluded
“the standard of care required that A.F. be transferred
to a NICU and receive the level of care that is only
available in a NICU, such as the one at [Winchester].”
J.A. 281. The court found “Dr. Hardy should have
transferred A.F. to [Winchester] the same afternoon
A.F. was born. . . .” J.A. 281. The court further found Dr.
Hardy was not absolved by her transfer of care to Dr.
Purohit because, even though he was a board-certified
neonatologist, he “was without a NICU. Thus, at a minimum, he lacked the appropriate equipment, specialized staff or necessary protocols to adequately assess
and treat a baby who needed intensive care.” J.A. 281.
The district court concluded that Dr. Hardy’s failure to
follow the applicable standard of care caused A.F.’s injuries and awarded Butts over seven million dollars in
damages.1

1

The district court did not apportion liability among the
other defendants that settled prior to trial. Furthermore, the district court did not offset the damages award by the amount of
Medicaid and Supplemental Security Income payments that the
federal government will make to A.F. for her injuries.

App. 7
The United States filed a timely appeal. We have
jurisdiction of this appeal under 28 U.S.C. § 1291.
II.
We review a judgment following a bench trial under a mixed standard of review. Equinor USA Onshore
Properties Inc. v. Pine Res., LLC, 917 F.3d 807, 813 (4th
Cir. 2019). While conclusions of law are examined de
novo, we may reverse factual findings only if they are
clearly erroneous. Id. The clearly erroneous standard
“does not entitle a reviewing court to reverse the finding of the trier of fact simply because it is convinced
that it would have decided the case differently.” Anderson v. City of Bessemer City, N.C., 470 U.S. 564, 573
(1985). Rather, “[i]f the district court’s account of the
evidence is plausible in light of the record viewed in its
entirety, the court of appeals may not reverse it even
though convinced that had it been sitting as the trier
of fact, it would have weighed the evidence differently.”
Id. 573-74.
But while clear error review is deferential, it is not
toothless. United States v. Wooden, 693 F.3d 440, 452
(4th Cir. 2012). A finding is clearly erroneous “when
although there is evidence to support it, the reviewing
court on the entire evidence is left with the definite and
firm conviction that a mistake has been committed.”
Anderson, 470 U.S. at 573 (quoting United States v.
United States Gypsum Co., 333 U.S. 364, 395 (1948)).
Pertinent here, this Court’s conviction that a mistake
has been committed may be properly based upon a

App. 8
conclusion that the findings under review “are not supported by substantial evidence” in the record.2 Miller v.
Mercy Hosp., Inc., 720 F.2d 356, 361 (4th Cir. 1983).
III.
On appeal, the United States argues Butts did not
introduce sufficient evidence to support a conclusion
that Dr. Hardy breached the applicable standard of
care.3 To establish breach, West Virginia law4 requires
a party bringing a medical malpractice claim to show
that “[t]he health care provider failed to exercise that
degree of care, skill and learning required or expected
of a reasonable, prudent health care provider in the
2

In reviewing this case, the standard we apply is effectively
the same standard a trial judge applies in considering a motion
for judgment as a matter of law under Federal Rule of Civil Procedure 50 in the context of a jury trial.
3
The United States also raises the following issues on appeal:
(1) whether the district court erred in concluding Butts introduced evidence supporting a finding that Dr. Hardy’s treatment
was the proximate cause of A.F.’s injuries; (2) whether the district
court erred by failing to consider whether a share of liability
should have been apportioned to other defendants who settled before trial; (3) whether the damages award must be reduced by the
amounts that plaintiff will receive from federal benefits programs
as compensation for the same injuries covered by the damages
award; and (4) whether the district court erred in refusing to reduce the damages award by the amounts that plaintiff received
from settling co-defendants as required by West Virginia law.
4
Because this is an action brought under the FTCA, we apply “the substantive law of the state in which the act or omission
giving rise to the action occurred.” Myrick v. United States, 723
F.2d 1158, 1159 (4th Cir. 1983). Accordingly, we apply the substantive law of West Virginia in resolving this appeal.

App. 9
profession or class to which the health care provider
belongs acting in the same or similar circumstances. . . .”
W. Va. Code § 55-7B-3(a)(1); see also MacDonald v. City
Hosp., Inc., 715 S.E.2d 405, 423 n.22 (W. Va. 2011). The
applicable standard of care, and the defendant’s failure
to meet the standard of care, must be established by
the “testimony of one or more knowledgeable, competent expert witnesses if required by the court.” Id. § 557B-7. A physician is not required to provide a patient
with “the highest degree of care possible.” Bellomy v.
United States, 888 F. Supp. 760, 765 (S.D.W. Va. 1995)
(citing Schroeder v. Adkins, 141 S.E.2d 352, 357 (W. Va.
1965)). “Moreover, where there is more than one
method of medical treatment accepted and applied by
average physicians similarly situated, the physician
may take into account the particular circumstances of
each case and may exercise his honest and best judgment in selecting a course of treatment for individual
patients.” Id. at 765-66. In fact, if there is more than
one acceptable method of treatment, the physician
need not choose the best one. Id. at 766 (citing Maxwell
v. Howell, 174 S.E. 553, 554-55 (W. Va. 1934)).
On the issue of whether Dr. Hardy breached the
applicable standard of care, Butts first called Dr. John
C. Partridge, a physician who is board-certified in pediatrics and neonatal perinatal medicine. Dr. Partridge, the expert the district court found to be the
most credible, testified to a reasonable degree of medical probability that by noon “the child, I think would
have been better served, far better served in a different hospital.” J.A. 500. Dr. Partridge further opined

App. 10
that, because of A.F.’s continuing symptoms and
deteriorating condition, “that child should have been
transferred.” J.A. 501. But Dr. Partridge significantly
qualified his opinion on cross-examination when he
acknowledged that transfer to a NICU was not required. Rather, Dr. Partridge opined “the child should
have been transferred either to a higher level of care
within Berkeley Medical Center or to a NICU.” J.A.
525. Dr. Partridge then acknowledged that Dr. Hardy
did in fact transfer A.F. to Dr. Purohit, a board-certified
neonatologist who had been hired to start a NICU at
Berkeley. Dr. Partridge also opined on cross that the
first time Dr. Purohit was required to transfer A.F. under the applicable standard of care was at 11:15 p.m.
that night. Critically, this was almost nine hours after
Dr. Hardy transferred care to Dr. Purohit.
Based on Dr. Partridge’s testimony, Dr. Hardy did
not violate any generally applicable standard of care.
As discussed, a physician is not required to provide a
patient with “the highest degree of care possible.” Bellomy, 888 F. Supp. at 765. Additionally, where there is
more than one acceptable method of treatment, the
physician need not choose the best method. Id. at 766.
Here, Dr. Partridge testified that Dr. Hardy could satisfy the standard of care by either transferring A.F.
to a higher level of care within Berkeley Medical Center or to a NICU. The facts show, and Dr. Partridge
acknowledges, that Dr. Hardy chose to transfer A.F. to
a higher level of care within Berkeley by transferring
care to Dr. Purohit. Based on Dr. Partridge’s own testimony this was an acceptable method of treatment for

App. 11
Dr. Hardy to pursue, whether or not it was the best
method of treatment. Therefore, Dr. Partridge’s testimony fails to establish that Dr. Hardy breached the
standard of care.
Butts next presented the testimony of Dr. Carol
Miller, a board-certified pediatrician. Dr. Miller testified that Dr. Hardy breached the applicable standard
of care by not transferring A.F. to a NICU. While she
testified generally about other benefits of a NICU, Dr.
Miller explained that A.F. needed to be transferred to
a NICU to receive treatment with a CPAP machine or
intubation. More specifically, when asked about the
care A.F. would have received at a NICU that she did
not receive at Berkeley, Dr. Miller responded “[m]ost
importantly is enhanced respiratory support. . . . That
could be in the way of CPAP, which is a method of giving increased pressure, or it could be intubating, which
is what this baby needed. . . .” J.A. 755-76. Dr. Miller
did not testify that a CPAP machine was medically
necessary or preferable to intubation. Rather, she indicated that either a CPAP machine or intubation could
be used under the circumstances. Dr. Partridge agreed,
testifying that the choice between using a CPAP machine and intubation is “a management style choice.”
J.A. 481-82.
Whether Dr. Miller realized it or not, intubation
was available at Berkeley. Indeed, Dr. Purohit testified
that he intubated a baby the first day he arrived at
Berkeley, and the district court identified only one
specific NICU-level intervention, a CPAP machine,
that was not available at Berkeley. Because Dr. Hardy

App. 12
transferred A.F. to Dr. Purohit, who had the expertise
and equipment to perform the treatment Dr. Miller
said A.F. needed, Dr. Hardy’s conduct did not fall below
the standard of care.
We are mindful of our responsibility to consider
the district court’s findings on breach in light of the entire record. With that in mind, when the complete testimony of Dr. Partridge and Dr. Miller is considered
together, Butts presented evidence that Dr. Hardy was
required to transfer A.F. to a higher level of care to receive enhanced respiratory intervention. But that is
what Dr. Hardy did. Dr. Hardy transferred A.F. to a
board-certified neonatologist, Dr. Purohit, who assured
Dr. Hardy that he had the equipment and ability to
care for A.F. at Berkeley. Dr. Purohit had the ability to
provide more aggressive respiratory intervention, including intubation. Intubation is the exact procedure
that Dr. Miller said was required. And Dr. Partridge
opined that once Dr. Hardy transferred care to Dr. Purohit, Dr. Purohit was not required to transfer A.F. to a
NICU until 11:15 p.m. that evening. If Dr. Purohit was
not required to transfer A.F. to a NICU until 11:15
p.m., it cannot have been malpractice for Dr. Hardy to
transfer A.F. to Dr. Purohit to receive an elevated level
of care at 1:45 p.m. earlier that afternoon.5
5

The deficiencies in the testimony offered by Butts’s experts
are exacerbated because neither clearly articulated a standard of
care in the first place. While they both used the “standard of care”
label during their testimony, neither explained any meaningful
criteria for judging A.F.’s conditions that required transfer. Put
another way, neither expert appropriately said what was right
before saying what was wrong.

App. 13
IV.
After reviewing the whole record, we are firmly
convinced the district court’s finding that Dr. Hardy
breached the standard of care was a mistake. The district court’s finding as to breach was not supported by
substantial evidence in the record and was thus clearly
erroneous. Specifically, the district court’s finding on
breach was not supported by Butts’s own expert testimony. Therefore, despite the sympathy we feel for A.F.,
the district court’s order finding Dr. Hardy liable for
medical malpractice must be reversed.
Because we hold the district court erred in finding
Dr. Hardy liable for malpractice, we need not address
the remaining issues raised by the United States. The
judgment of the district court is reversed, and the district court is directed to enter judgment in favor of the
United States.
REVERSED

App. 14
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT
OF WEST VIRGINIA
MARTINSBURG
KAYLA BUTTS,
individually and on
behalf of her daughter
A.F., a minor,
Plaintiffs,
v.

CIVIL ACTION NO.:
3:16-CV-53
(GROH)

UNITED STATES
OF AMERICA,
Defendant.
ORDER OF BENCH TRIAL FINDING
IN FAVOR OF THE PLAINTIFFS
In this action, Plaintiffs allege that Plaintiff A.F.,
a minor child, suffered permanent and severe brain
damage injuries that resulted from the medical negligence of Defendant shortly after A.F. was born. Specifically, Plaintiffs aver that Dr. Sarah Hardy failed to
meet the standard of care, and her failure caused A.F.’s
injuries.
I.

INTRODUCTION

A four-day bench trial commenced on May 23, 2017,
wherein the parties called fifteen witnesses and submitted four deposition transcripts. Several exhibits, including Plaintiffs’ medical records, were admitted into

App. 15
evidence. Subsequently, the parties submitted proposed findings of fact and conclusions of law. ECF
Nos. 180, 181 & 182. On August 8, 2017, Plaintiffs also
submitted a supplementation of recent legal authority.
ECF No. 183. Having presided over the trial in this
matter and carefully reviewed all of the admitted testimony, depositions and exhibits, along with the parties’ proposed findings of fact and conclusions of law,
the Court, upon thoughtful consideration of the relevant statutes and legal precedent and for the following
reasons, hereby finds for the Plaintiffs.
II.

TESTIMONY

Dr. Sarah Hardy was the first attending physician
charged with A.F.’s care. Dr. Hardy was a defendant in
this civil action, but, under the Federal Tort Claim Act
(“FTCA”), the United States of America substituted itself as the Defendant in her place.
Dr. Hardy became board certified in October 2012,
and the first position she held after completing her residency was at Shenandoah Community Health (“Shenandoah”). T 181. Beginning at 8:00 a.m. on the morning
A.F. was born, Dr. Hardy was on call at Berkeley Medical Center. Dr. Hardy was at her home when nursing
staff at BMC paged her because of A.F.’s poor condition.
Dr. Hardy arrived at the hospital around 9:10 a.m.,
approximately twenty minutes after A.F. was born.
T 187. Dr. Hardy took note of A.F.’s low Apgar readings
of two and four at one and five minutes of life, respectively. T 189. Dr. Hardy testified that A.F. was born in

App. 16
mild to moderate respiratory distress, crying and not
vigorously moving around. T 193. She stated that a
baby who is hypoxic for long periods of time does not
have the pulmonary vasculature dilation to allow oxygenation of the blood and being hypoxic can make that
worse. T 194. Dr. Hardy also testified that a baby’s oxygen level dropping even one or two percentage points
could cause decreased blood flow to the lungs, which,
in turn, causes the saturations to lower rapidly. Id. Dr.
Hardy testified that upon her initial exam of A.F. she
was predominantly concerned with A.F.’s respiratory
status and noted there was an increased respiratory
rate with grunting, flaring and retracting. T 196. Dr.
Hardy testified that it could sometimes take up to five
hours for a baby to be able to breathe and function normally.
Dr. Hardy explained that meconium aspiration is
the “syndrome of respiratory distress following the ingestion of meconium.” T 199. Dr. Hardy testified that
upon receiving A.F.’s lab results at around 10:00 a.m.,
she decided to provide supplemental fluids and glucose, continue to give antibiotic therapy and supplemental oxygen for another hour or two and monitor
A.F. for any change in her status. T 204-05. However, if
any time thereafter A.F. started breathing harder,
needed more oxygen, failed to improve or got worse,
then Dr. Hardy planned to transfer A.F. to a neonatal
intensive care unit (“NICU”). T 205.
After initially seeing A.F., Dr. Hardy went to her
office at Shenandoah. On direct examination Dr. Hardy
testified that while at Shenandoah she spoke with

App. 17
A.F.’s nurse five or six times over a ninety-minute
timespan. T 206. During cross examination, Dr. Hardy
conceded that she exaggerated how many times she
spoke with A.F.’s nurse. T 243-44. Specifically, she admitted that she did not speak with A.F.’s nurse five or
six times as she previously testified, but it was more
likely only two or three times. However, Dr. Hardy also
acknowledged that BMC’s records indicated she spoke
to A.F.’s nurse once. Id.
Dr. Hardy testified that A.F.’s arterial blood base
excess was a little abnormal at negative five and fourtenths. T 209. After talking to A.F.’s nurse, Dr. Hardy
learned that A.F. was breathing faster and harder. Dr.
Hardy thought she needed “to transfer [A.F.] to a NICU
level of care because it looked like she was not . . . improving significantly with the treatment that [Dr.
Hardy] was giving her at the time[,]” and it was at that
point in time Dr. Hardy intended to transfer A.F. to
Winchester Medical Center’s (“WMC”) NICU. T 210.
Dr. Hardy testified that she made a note in the history
and physical (“H&P”) at 10:41 a.m. that if A.F. did not
improve she would transfer her to a NICU. T 224. BMC
did not have a NICU. T 225.
Dr. Hardy testified that only two or three times
since being out of medical school had Dr. Hardy seen a
child in A.F.’s condition. T 234. She testified that A.F.
had a glucose reading so low it did not register, followed by a reading of twelve. Dr. Hardy testified that
A.F.’s glucose readings indicated she was under stress
during the delivery process. T 237. Dr. Hardy testified
that A.F. was in respiratory distress for the duration of

App. 18
her care. T 251. She agreed that A.F. could develop brain
damage if an inadequate amount of oxygen reached
her brain. T 238. She also testified that once A.F.
reached two to three hours of life, considering her vital
signs and overall circumstances, A.F. needed more
than a pediatrician. T 252. Everything Dr. Hardy observed indicated that A.F. needed to be transferred to
the NICU at WMC. Id.
However, BMC’s nurse manager approached Dr.
Hardy and asked her to consider consulting with Dr.
Avinash Purohit rather than transferring A.F. to WMC.
Dr. Hardy acquiesced and called in Dr. Purohit. T 21011.
Dr. Hardy testified that Dr. Purohit had the ability
to provide a higher level of care than she because he
went to a storeroom and retrieved a nasal cannula. T
249-50. Indeed, Dr. Hardy was unaware that BMC had
a nasal cannula. T 250. Dr. Purohit began his employment at BMC on the 14th of October—three days before A.F. was born—and he was the only neonatologist
at the hospital. D 15. Dr. Purohit was hired to start and
manage a NICU at BMC. D 18. A.F. was the first child
Dr. Purohit cared for at BMC. D 21. BMC did not have
a NICU or even a CPAP machine at that time. D 19.
When Dr. Hardy was asked if she was required to
write a note in the record that she transferred A.F.’s
care to another provider, Dr. Hardy testified that she
was sure she was not required to do so. T 226. However,
Dr. Hardy admitted that she did not know if she had
ever viewed BMC’s policies and procedures. T 226-27.

App. 19
Prior to caring for A.F., Dr. Hardy only transferred babies from BMC to other doctors at WMC. T 227.
The Plaintiffs called BMC’s designated representative, Samantha Richards, who testified about the hospital’s policy regarding attending physicians transferring
on-call responsibilities, as it was written in October
2013. T2 139. Ms. Richards read the policy, which
stated:
A physician member of the Staff shall be responsible for the medical care of each patient
in the Hospital. The attending practitioner
shall be responsible for the treatment and
the prompt completeness and accuracy of the
medical record, for necessary special instructions to include isolation if necessary, and for
transmitting reports of the condition of the
patient, if appropriate, to the referring practitioner. Whenever these responsibilities are
transferred to another practitioner, a note
covering the transfer of responsibility shall be
entered on the order sheet of the medical record. A progress note summarizing the patient’s condition and treatment shall be made
and the practitioner transferring his responsibility shall personally notify the other practitioner to ensure the acceptance of that
responsibility is clearly understood. The patient shall be assigned to the service concerned in the treatment of the disease which
necessitated admission. In the case of a patient requiring admission who has no practitioner, he or she shall be referred to the
practitioner on-call for the service to which

App. 20
the illness of the patient indicates assignment.
T2 139-40.
Ms. Richards also testified that the physician
who originally evaluated the patient should enter an
order transferring care. T2 144. Further, she explained
that the transferor physician is supposed to author
a progress note summarizing the patient’s condition.
T2 146. Ms. Richards testified that although there are
times when either physician could write the progress
note, in the event a patient’s condition worsens or does
not improve, then both transferor and transferee physicians would write a progress note. T2 145-46.
Dr. Hardy was unaware of this policy, and she
never made a note that A.F.’s care was transferred to
Dr. Purohit. T 253-54.
A.F. was transferred to the NICU at WMC the day
after she was born. By the time A.F. was transferred to
WMC, her condition had considerably worsened since
Dr. Hardy’s decision to consult Dr. Purohit rather than
transfer her to WMC.
Dr. Edward Lee was the attending physician
charged with A.F.’s care during her lengthy stay at
WMC. He is a neonatologist at WMC who cares for
high-risk babies. D 7. His testimony was admitted via
deposition.
Dr. Lee is board certified in both pediatrics and
perinatal and neonatal medicine. D 8. He started practicing medicine at WMC in 1998 and has remained

App. 21
there to the present. D 10. He routinely received referrals from BMC. D 12-13. In reviewing the transport
records, he noted that it was about 12:13 p.m. on October 18 when he spoke to someone at BMC regarding
A.F. D 19. He was told that A.F. was a one-day-old baby
with meconium-stained fluid and was on oxygen. He
was also advised that A.F. was dyspneic, and BMC was
unable to give high respiratory support. D 20.
Dr. Lee testified that when WMC’s transport team
arrived at BMC, A.F.’s oxygen saturation was eightyone, she was cyanotic and had paradoxical breathing.
D 26-27. Dr. Lee noted that a normal saturation would
be in the mid-nineties or higher. Dr. Lee’s team started
A.F. on CPAP and discovered more meconium when
they attempted to intubate her on two separate occasions. D 44-45. Dr. Lee also explained that an X-ray
revealed something in A.F.’s lungs, which was not allowing them to fill with as much air as necessary. D 47.
Once A.F. was intubated and on CPAP, Dr. Lee’s
team was able to get A.F.’s oxygen saturation up to
ninety-nine percent. D 49. He said it was unclear
whether A.F. had an infection, but the cultures were all
negative. D 51. Dr. Lee also noted that WMC administered an electroencephalogram (“EEG”) on A.F. D 61.
Although he could not be one hundred percent certain
that A.F. suffered from meconium aspiration, he was
led toward that conclusion. D 66-67.
Dr. Lee testified that hypoxia is a “decrease in the
oxygen level” and ischemia is a lack of perfusion. He
further explained that encephalopathy is a reaction of

App. 22
the brain to what has happened. Dr. Lee opined that
there was a hypoxic ischemic event based upon the
magnetic resonance imaging (“MRI”) report, which
showed that different parts of the brain lacked perfusion. D 68-69.
Dr. Lee opined there was a lack of blood flow—and
consequently oxygenated blood—which led to cellular
injury, specifically to A.F.’s brain cells. D 76-77. Dr. Lee
testified that apnea is not normal in a term baby, and
he described apnea as ceasing to breathe; in this case,
it was forgetting to breathe. D 83. Dr. Lee opined that
what he observed was consistent with severe acute anoxic/hypoxic injury.
Dr. Lee’s team was able to control A.F.’s seizures.
D 86. However, he opined that the diagnosis of seizures
will always be active during any future hospitalization. A.F.’s respiratory difficulty was his primary focus.
D 91. His team worked to stabilize A.F.’s oxygenation.
D 91. Once A.F. got to WMC, she was admitted directly
into its NICU. D 92. A.F. had mature lungs. D 95. Dr.
Lee opined that meconium aspiration was the most
likely diagnosis. D 95-97.
Plaintiffs called John C. Partridge, M.D., as an expert witness. Dr. Partridge is a neonatologist and pediatrician, who works predominantly in a NICU. T 86-87.
He is board certified in pediatrics and neonatal perinatal medicine. T 88. He testified that he has treated children with hypoglycemia and explained that if the blood
is not carrying proper glucose or if there is a decreased
blood flow to the brain even with good glucose, there

App. 23
may be cellular aberrations and metabolism of brain
cells resulting in their destruction. T 95. He testified
that the brain needs oxygen, which it receives through
red blood cells. T 96.
Dr. Partridge reviewed medical records from BMC
pertaining to the birth of A.F., records from WMC, and
depositions of Dr. Hardy, Dr. Purohit and various
nurses. T 99. He noted that once in Dr. Hardy’s care,
A.F. was hypoglycemic and in respiratory distress.
T 100. A.F. needed and received resuscitation at birth,
but her Apgar scores remained low thereafter. T 101.
He testified that the records indicate A.F. had respiratory problems and neonatal hypoglycemia. T 106-107.
Dr. Partridge also opined that grunting, flaring and retracting are all signs that a baby is trying to breathe
adequately but is either acidotic or is not receiving sufficient oxygen. T 110. He noted that A.F.’s oxygen saturation at ten minutes of life was seventy-five percent.
Dr. Partridge testified that seventy-five percent is too
low and means that only seventy-five percent of the red
blood cells in A.F.’s blood were carrying hemoglobin.
T 111. Dr. Partridge opined that a glucose reading of
twelve indicates that the metabolic demands have exceeded the ability of the child to make her own glucose.
T 114. He also stated that A.F. was tachypneic.1 T 115.
Referring to the medical records, Dr. Partridge
noted that the hospital called Dr. Hardy to return later
in the morning because A.F. was deteriorating with
tachypnea and decreased saturations and she needed
1

More than sixty breaths per minute in a neonate.

App. 24
increased oxygen. T 131. Dr. Partridge opined that if
A.F. had been in a NICU, the unit would have had the
ability to give oxygen adequately because NICU providers can intubate and ventilate. T 133-34. Dr. Partridge opined that A.F. deteriorated the first day of life,
which is typical of a child with pulmonary hypertension. He also opined that A.F. needed a physician at the
bedside and absolutely needed to be in a NICU. T 135.
To a reasonable degree of medical certainty, Dr. Partridge agreed with Dr. Lee’s diagnosis that A.F. had anoxic ischemic encephalopathy. T 139.
Dr. Partridge also opined within a reasonable degree of medical certainty that Dr. Hardy should have
transferred A.F. at noon, the same day she was born—
more than twenty-four hours before A.F. was actually
transferred to WMC. T 141. He opined that Dr. Hardy
certainly was the attending physician from 9:30 to 2:46
PM. T 151. He also opined that merely putting A.F. on
a nasal cannula and increasing oxygen was not appropriate under the circumstances. T 152. He opined that
A.F. was actually getting worse during Dr. Hardy’s
care, which was her criteria for transferring A.F. to a
higher level of care. T 165-66. Dr. Partridge also opined
within a reasonable degree of medical certainty that it
was very unlikely A.F. had a prenatal brain injury.
T 171. He opined that A.F.’s history was much more indicative of immediate postnatal cerebral palsy. T 172.
Carol Miller, M.D., is a board certified pediatrician. Her testimony was presented via videotape with
a transcript and generally parallels Dr. Partridge’s testimony. Dr. Miller reviewed the pertinent hospital

App. 25
records in this case. D 187-188. According to Dr. Miller,
A.F. had meconium aspiration and was not breathing well following delivery, not stable and was hypoxic.
D 193-194. She noted that A.F.’s glucose was extremely
low, risking injury to the brain; that there was fast
breathing, tachypnea, flaring, grunting; and A.F. appeared to be having problems establishing adequate
ventilation. D 197-200. Dr. Miller opined that A.F.
needed the care available in a NICU following delivery,
and it was below the standard of care when Dr. Hardy
did not transfer her to a NICU. D 200. Dr. Miller opined
that had A.F. been admitted to a NICU, she would have
received the necessary support for proper respiration.
D 208-209.
Dr. Miller opined that the standard of care required A.F. to receive CPAP or intubation. D 209. Dr.
Hardy testified that BMC did not have CPAP available.
T 188. In Dr. Miller’s opinion, A.F.’s inadequate breathing, respiration and oxygen delivery to the cells of the
body, including the brain, were the result of Dr. Hardy’s
actions, which fell beneath the standard of care. D 214221.
Dr. Miller also opined within a reasonable degree
of medical certainty that A.F. developed hypoxicischemic encephalopathy because of Dr. Hardy’s violation of the standard of care and that Dr. Hardy had
full responsibility for A.F. D 220-21. Dr. Miller opined
that had the standard of care been followed, A.F. would
not have experienced hypoxic-ischemic encephalopathy. D 221. She further opined that Dr. Hardy’s care did
not end once she brought Dr. Purohit into the matter

App. 26
as a consulting physician. D 229. Dr. Miller also noted
that even though Dr. Purohit was a neonatologist, he
could do nothing more than Dr. Hardy in the absence
of a NICU at BMC. D 250.
Dr. Jonathan Muraskas testified as an expert witness on behalf of the Defendant. T2 151. Dr. Muraskas
has testified under oath in malpractice cases 100 to
115 times. Although he said he was not concerned with
media attention, his curriculum vitae indicated otherwise. T2 189.
Although Dr. Muraskas testified that everything
in A.F.’s medical history is very suggestive of infection,
he noted that A.F.’s white count was normal and that
she had both normal hemoglobin and hematocrit. T2
177. Dr. Muraskas testified that he did not believe A.F.
needed to be transferred to Winchester. T2 180. He believed that there was an evolving infection, specifically
chorioamnionitis. T2 182. Dr. Muraskas testified that
chorioamnionitis affects ten percent of pregnancies. Id.
He noted that A.F.’s mother’s white blood cell count
was not overwhelming, and A.F.’s arterial blood gases
were completely normal. T2 185-86.
Dr. Muraskas believed that WMC appropriately
diagnosed A.F. with hypoxia ischemic encephalopathy.
T2 192-93. He opined that Dr. Hardy’s inclination to
transfer A.F. to WMC was not necessarily the correct
decision. T2 198. He did not know the exact physical
set up at BMC but conceded that a maximum care
nursery is not a NICU. T2 198-99. He opined that A.F.
did not need CPAP. T2 199. He noted that an Apgar of

App. 27
two was not normal and that a five-minute Apgar of
four is also not normal. T2 205. He opined that grunting and flaring is normal in a newborn. He also testified that an oxygen saturation of seventy-five is
normal. However, he later changed his testimony and
said it was abnormal but irrelevant. T2 207-208. He
agreed that a heart rate of one hundred sixty-eight to
one hundred eighty, a glucose reading of twelve, a respiratory rate of ninety and cyanosis are all not normal.
T2 208-11. He agreed that apnea is never normal in a
baby. T2 215. Dr. Muraskas opined that A.F. needed to
be intubated at some time while she was at BMC. T2
218. However, Dr. Muraskas could find nothing in the
record that indicated to him that A.F. may have suffered brain damage before leaving BMC. T2 219. Dr.
Muraskas also opined that A.F.’s apnea was actually
seizures, which caused her encephalopathy later that
evening. T2 219.
Dr. Muraskas testified that dilated pupils indicate
brain damage. T2 220. A.F.’s pupils were dilated before
being transported to WMC. However, Dr. Muraskas
opined that A.F. simply was doomed upon birth. T2
223. He also disagreed with Dr. Lee’s finding that A.F.
had meconium aspiration syndrome. T2 225. But, Dr.
Muraskas agreed that A.F. suffered from hypoxic ischemic encephalopathy. T2 225.
Thomas Rugino, M.D., is a triple-board-certified
physician in pediatrics, physical medicine and rehabilitation and neurodevelopmental disabilities. He is one
of only a dozen physicians in the country with the
above-referenced triple board certification. T 20. Dr.

App. 28
Rugino has practiced at Children’s Specialized Hospital in New Jersey for more than fifteen years, treating
children with neurologic and musculoskeletal injuries
and cognitive type disabilities.
Dr. Rugino reviewed medical records, school records,
and A.F.’s birth-to-three records for his report. T 20; 26.
He noted that A.F.’s mother was Group B strep positive
and treated with Flagyl. However, Dr. Rugino opined
there was no evidence that it affected A.F.’s outcome.
T 29. He noted that A.F. sustained significant injury in
several areas of her brain. T 29. Dr. Rugino opined that
an EEG confirmed within a reasonable degree of medical certainty that A.F. had hypoxic-ischemic encephalopathy. T 31. He believed that “the neurological issues
were due to hypoxic-ischemic events.” T 32-33. Dr. Rugino also testified that at the time he examined A.F.,
she was not meeting her gross motor skills, walking or
jumping, or communicating effectively, and she had a
very, very limited ability to follow directions, as well as
being very delayed in all areas of development. T 37.
He noted that her right hand is dysfunctional. Dr. Rugino demonstrated basic tests with A.F. during the
trial, which revealed many of A.F.’s disabilities for the
Court. T 46. Dr. Rugino also noted that A.F. has a moderate to severe cognitive disorder. T 48.
Dr. Rugino testified that A.F. has no prospect of
walking independently and has no possibility of true
community ambulation. T 52. He opined within a reasonable degree of medical certainty that the hypoxic
ischemic injury caused of A.F.’s disabilities. T 56. He
opined that she suffers from spastic quadraparetic

App. 29
cerebral palsy with multifocal seizures, oral dysphagia,
gross and fine global development delays, communication delays, visual reception, social skills, contractures
of the iliopsoas muscles bilaterally, bilateral hip abductor and bilateral hamstring injuries all as a direct result of the hypoxic ischemic encephalopathy. T 62-63.
Dr. Rugino concluded that A.F. has no prospect
whatsoever of approaching normal development. T 64.
In his opinion, A.F. will not graduate from school with
any marketable skills, will remain completely and
permanently disabled from any type of meaningful,
gainful employment, will need continuous safety supervision and will not be able to make any life decisions on her own. T 66.
Dr. Rugino reviewed A.F.’s life care plan and testified that the life care planner followed his recommendations. T 70. He expected A.F. would have a normal
life expectancy because she does not have any conditions or disorders that are likely to result in premature
death. T 71. Dr. Rugino noted that an MRI taken of A.F.
at four days old showed extensive edema and diffusion
restriction typical of a perinatal injury, and he opined
that the injury occurred on A.F.’s first day of life. T 8283.
Thus, it was Dr. Rugino’s opinion within a reasonable degree of medical probability that A.F. suffered
from meconium aspiration syndrome with resultant respiratory failure requiring mechanical ventilation, which
led to her hypoxic-ischemic brain injury. Dr. Rugino
further opined within a reasonable degree of medical

App. 30
probability that as a direct result of the immediate prenatal distress, complicated by meconium aspiration
syndrome with prolonged hypoventilation, A.F. suffered neonatal metabolic acidosis, hypoglycemia and
hyperbilirubinemia. Therefore, the immediate prenatal distress complicated by the meconium aspiration
syndrome and resultant continuous respiratory deficiencies caused A.F.’s permanent brain injuries.
The Defendant called Dr. Harry Chugani as an
expert. Dr. Chugani is a board certified pediatric neurologist. T2 6. His work generally includes using a position emissions tomography (“PET”) machine to find
an epileptic focus and map out areas for removal by a
surgeon. T2 8. A PET scan is another form of imaging.
T2 9. Dr. Chugani’s practice in Delaware does not include neuromuscular diseases. T2 10. He was not a
practicing pediatrician, and his work emphasis was epilepsy. T2 15-16. He did not review any PET scans for
this case, and he never examined A.F. T2 16. Although
he disagreed with many of Dr. Rugino’s conclusions, Dr.
Chugani agreed that A.F.’s injury could have occurred
any time prior to her MRI. T2 36. He also agreed that
A.F. had serious developmental issues with injuries
that were multi-focal. T2 65.
Laura Lampton testified regarding the life care
plan she created for A.F. Ms. Lampton is a life care
planner and member of the American Association of
Nurse Life Care Planners. In preparing A.F.’s life care
plan, Ms. Lampton conferred with Dr. Rugino and also
met with A.F. T3 11-12. Ms. Lampton testified that
as A.F. progresses, her condition will stabilize and

App. 31
plateau. She opined that necessities for A.F. should
continue through age eighteen. T3 23. Because A.F.’s
mother, Kayla Butts, needs respite assistance to work
and do other activities, Ms. Lampton included that expense until A.F. reaches forty-eight years of age. T3 25.
The gross cost of future care totaled between $7.2 and
$7.7 million. T3 26-27. Ms. Lampton’s life care plan
also recommended less physical therapy, occupational
therapy and other similar activities than A.F. is currently receiving. T3 36.
The Defendant called Nancy Forest to testify about
the life care plan Ms. Lampton developed. Ms. Forest
did not independently create a life care plan for A.F.
Instead, she reviewed Ms. Lampton’s plan and then
discussed her impressions with Dr. Chugani. T4 38.
She opined that the majority of Nurse Lampton’s life
care plan was reasonable, including the respite assistance, attendant care and vehicle issues. T4 46. Ms.
Forrest had no medical education. T4 49. Ms. Forest relied heavily upon information from Dr. Chugani in developing her opinion regarding Ms. Lampton’s life care
plan for A.F. T4 50. Chad Staller was called as an expert to testify regarding the economic damages in this
case. Mr. Staller works at the Center for Forensic Economic Studies. T3 86. In reaching his conclusions and
preparing his report, Mr. Staller utilized data from various sources, including the Journal of Forensic Economics, Worklife Estimates and US Vital Statistics. T3
90. He offered his opinion of the current value of future
costs and lost earnings capacity. T3 97. Mr. Staller
took into account factors like inflation, productivity

App. 32
and discounting. T3 99. He utilized generally accepted
methodology. T3 100. Based upon standard data, he determined that A.F. would obtain a high school diploma
or GED. T3 101. He did not make calculations for college because she only had an eighteen percent chance
of completing college. Instead, Mr. Staller used a high
school graduate’s status because A.F. had a sixty-nine
percent likelihood of graduating. T3 102. He explained
how he determined that A.F. would likely have worked
for forty-two years in the labor force. Because
healthcare costs increase at a rapid pace, Mr. Staller
isolated the rising cost of healthcare compared to general inflation and wage growth. T3 107. He opined,
within a reasonable degree of economic certainty, that
the need for future medical care reduced to present
value would be $4,607,834.00. T3 108. Mr. Staller further opined that A.F.’s future lost earnings capacity
was between $1,318,522.00 and $1,631,125.00. Plaintiffs’ Ex. 24.
The Defendant called Homayoun Hajiran as an
expert economist. Mr. Hajiran was asked to critique
Mr. Staller’s report. T4 69. Mr. Hajiran did not independently create his own report. Mr. Hajiran disagreed
with Mr. Staller’s determination regarding A.F.’s likely
educational attainment. T4 71-72. Mr. Hajiran opined
that A.F. would have had a fifty-fifty chance to finish
high school. T4 78. He also testified that he could not
say what A.F.’s chances of completing high school were.
T4 91. He agreed that eighty-eight percent of American children obtain a high school diploma. T4 91. Mr.
Hajiran testified that because A.F.’s great-grandfather

App. 33
committed murder, she was less likely to graduate
from high school. T4 95.
A.F.’s mother, Kayla Butts, testified that even
though she gave birth to A.F. when she was sixteen
years old, she graduated from high school with her
class. T2 98. Ms. Butts testified that she is, and always
has been, A.F.’s primary caretaker. Ms. Butts testified
that she probably spends at least twelve hours a day
taking care of A.F. T2 120. She also testified that A.F.
goes to Pikeside pre-school but cannot walk or talk and
often becomes very frustrated. T2 116.
III.

FINDINGS

OF

FACT

Plaintiff Kayla Butts was a 16-year-old girl who
had a difficult pregnancy, which included bacterial infection, fever, dehydration and multiple occasions of
pre-term labor, including one instance where she was
transported by helicopter to Morgantown, West Virginia. T2 123-26. Kayla also tested positive for GBS,
which, if passed to the baby, can be very dangerous.
On October 17, 2013, after her water broke at approximately 2:30 a.m., Kayla Butts went to BMC. Terminal meconium was noted at A.F.’s birth. The medical
records also indicate that A.F. did not cry, deep suctioning was performed, and stimulation was required. She
was making minimal effort to cry. An Apgar score is a
way to measure a newborn’s breathing effort, heart
rate, muscle tone, reflexes, and skin color. A.F. had low
Apgar scores. Three minutes after birth, the nurse
noted that A.F. still was not breathing spontaneously

App. 34
and performed deep suctioning again, which recovered
a small amount of thick mucus. At five minutes, her
Apgar was still only four out of ten. At that point,
one of the nurses again suctioned A.F., and more meconium was removed. Based upon her condition, A.F. was
taken to what BMC referred to as their maximum care
nursery. A.F. was observed grunting and flaring with
tachycardia, and her oxygen saturations were between
seventy-five and eighty-three while under an oxyhood
set to fifty percent oxygen.
Dr. Hardy, a pediatrician employed by Shenandoah, was on call for deliveries on October 17, 2013.
Around 9:15 a.m., Dr. Hardy arrived at BMC to examine A.F., and she noted that A.F. continued to grunt,
flare, and exhibit signs of respiratory distress. A chest
x-ray was taken at 9:30 a.m. At 9:45 a.m., A.F.’s glucose
level was unreadable. A.F.’s first recorded glucose was
twelve at 9:55 a.m. A normal range is forty to one hundred. Dr. Hardy ordered glucose for A.F. She also ordered blood tests, which revealed low red blood cell,
hemoglobin and hematocrit counts. Each of these findings were nearly twenty-five percent below the lowest
indicator within the respective normal range. A blood
culture taken from A.F. on October 17, 2013, was negative for an infection after five days incubation. Plaintiffs’ Ex. 11 at 1054-1055.
Through the remainder of the morning, A.F. continued to exhibit an increased respiratory rate, grunting, and low oxygen saturation. Id. at 1071-72. Dr.
Hardy’s differential diagnosis for A.F. included normal
transition; TTN; neonatal sepsis or pneumonia; cardiac

App. 35
defect; and meconium aspiration syndrome. T1 198-99.
A.F. continued showing signs of respiratory distress,
including grunting, retracting, and flaring. Plaintiffs’
Ex. 11 at 1003, 1071-1075. Dr. Hardy also ordered intravenous antibiotics ampicillin and gentamycin for
A.F. These antibiotics are considered the gold standard
of care in managing potential infection or sepsis in
newborns. T 200.
Dr. Hardy returned to BMC from her office at
Shenandoah around noon. T 209. Although Dr. Hardy
believed A.F.’s arterial blood gasses to be reasonable
given A.F.’s age, A.F.’s condition was not improving.
Thus, Dr. Hardy planned to transfer A.F. to the NICU
at WMC. T 209-10. However, a nurse manager, Melanie
Riley, approached Dr. Hardy in the nursery and suggested that she consult BMC’s newly hired neonatologist, Dr. Purohit. T 210.
Dr. Purohit came to BMC to be the director of neonatology and create a NICU. Dr. Purohit assumed his
responsibilities as a neonatologist at BMC on October
14, 2013. D 15-16. Prior to A.F.’s birth and during her
care BMC did not have a NICU. Dr. Hardy consulted
with Dr. Purohit around 1:30 p.m. on October 17, 2013.
T 211-12. Dr. Purohit was willing to take A.F. onto his
service as a patient. T 212.
At Dr. Purohit’s request, Dr. Hardy, who remained
the treating physician, entered an order around 2:00
p.m. for a chest x-ray to be taken of A.F. at 4:00 p.m. T
213. Over the course of the next twenty-four hours,

App. 36
A.F.’s condition persistently worsened, until she finally
was transferred to WMC’s NICU.
The neonatal transport record indicated the transfer of a term infant, one day old and with meconium
stained fluid. Plaintiffs’ Ex. 11 at 2001. It also noted
that A.F.’s pupils were dilated and her color was
slightly cyanotic and pale. Id. Further, she had paradoxical breathing, diminished breathing sounds on the
left and was still grunting and retracting and her abdomen was distended and firm. Id. A.F. was admitted
to WMC under the care of Dr. Lee, where she remained
for nearly a month. A.F. presently suffers from immediate postnatal cerebral palsy due to anoxic ischemic
encephalopathy caused by meconium aspiration and
respiratory distress.
In determining the appropriate award for Plaintiffs’ damages, this Court first notes that the evidence
in this case demonstrates A.F. has no prospect whatsoever of approaching normal development, will not
graduate from high school with any marketable skills,
will remain completely and permanently disabled from
any type of meaningful, gainful employment, will need
continuous safety supervision, will not be able to make
any life decisions on her own, and she is going to be
dependent on a caretaker, conservator or guardian to
make decisions on her behalf. She will never be able to
walk without a walker or some sort of assistance. It is
likely she will suffer from seizures. She needs physical
therapy, occupational therapy and speech therapy to
maximize her basic, functional skills. However, A.F.

App. 37
has a normal life expectancy because none of these conditions are likely to cause an early death.
The Court finds that A.F. is entitled to all noneconomic damages allowed under West Virginia law:
$673,453.49.
Plaintiffs presented a nurse life care planner, Ms.
Lampton, whose report was admitted into evidence as
Plaintiffs’ Exhibit twenty-two. Only Dr. Rugino and
Ms. Lampton met with A.F., examined her and analyzed the difficulties she faces. The Government’s experts merely criticized the reports of Plaintiffs’ experts.
Plaintiffs’ Exhibit twenty-two presents the future medical care A.F. will most likely require. Although nobody
can predict the future, Dr. Rugino and Nurse Lampton
offered opinions the Court finds sufficiently competent and legally adequate based upon their education,
training, and expertise, to support the Court’s conclusions herein. Further, the Government’s expert witness
testified that most of Ms. Lampton’s report was reasonable. Mr. Staller, the Plaintiffs’ economist, reduced the
future medical care costs to their present value. His
report is designated as Plaintiffs’ Exhibit twenty-four.
The figure for future healthcare costs is $4,607,834.00.
Mr. Staller also calculated lost earnings using an
individual with a high school education and presented
a range of $1,318,822.00 to $1,631,125.00 depending
on A.F.’s projected time spent in the workforce. Plaintiffs’ Ex. 24. It makes no difference whether taxes are
considered because of the relatively small earnings
and lost fringe benefits that would have been earned.

App. 38
Mr. Staller also did not include vacation or sick leave
compensation in his calculations.
The Court finds no reason to deduct taxes in this
case. Thus, the total economic loss for A.F. including
lost earnings, fringe benefits and cost of future care is
$6,331,933.00. The Court relies upon Mr. Staller’s report and testimony at trial, which it finds competent,
credible, and correct. The Court also notes that Mr.
Staller arrived at the abovementioned figures after adjusting for present value.
With respect to Kayla Butts, the parties stipulated
to medical bills in the amount of $99,246.98. The Court
also finds that Ms. Butts is entitled to some economic
damages. Given the level of care A.F. has required, and
evidence presented at trial that Ms. Butts has not only
been a good mother, but also a necessary care provider,
the Court finds she should be compensated for the first
four years of A.F.’s life consistent with the value of the
attendant care, at $31,308.00 per year, for a total of
$125,232.
IV.

CONCLUSIONS

OF

LAW

The events giving rise to the negligence in this
case occurred in West Virginia. Therefore, West Virginia law applies. See Cutlip v. United States, Civil Action No. 2:10-1314, 2015 WL 1726799, at *8 (S.D. W. Va.
Apr. 15, 2015); Honeycutt v. United States, 622 F. Supp.
2d 350, 354 (S.D. W. Va. 2008). For a plaintiff to prevail,
she must prove by a preponderance of the evidence
that “(1) [t]he health care provider failed to exercise

App. 39
[the] degree of care, skill and learning required or expected of a reasonable, prudent health care provider in
the profession or class to which the health care provider belongs acting in the same or similar circumstances; and (2) [s]uch failure was a proximate cause
of the injury.” W. Va. Code § 55-7B-3(a); see also Dawson v. United States, 11 F. Supp. 3d 647, 651 (N.D. W.
Va. 2014).
“A physician has a duty to render reasonable and
ordinary care in the diagnosis and treatment of a patient.” Runion v. United States, Civil Action No. 2:11cv-00525, 2013 WL 4881727, at *4 (S.D. W. Va. Sept. 12,
2013) (citing Syl. Pt. 3, Utter v. United Hosp. Ctr., Inc.,
236 S.E.2d 213 (W. Va. 1977)). Deviating “from this duty
is malpractice.” Id. (citing Kuhn v. Brownfield, 12 S.E.
519, 521 (W. Va.1890)). West Virginia courts apply a national standard of care, Syl. Pt. 1, Paintiff v. City of
Parkersburg, 345 S.E.2d 564 (W. Va. 1986), and “[w]hether
a physician breached the applicable standard of care is
to be judged at the time of his or her alleged negligent
acts.” Runion, 2013 WL 4881727, at *4 (citing Bellomy
v. United States, 888 F. Supp. 760, 765 (S.D. W. Va. 1995)).
A plaintiff generally must establish the standard of
care and its breach through expert testimony. W. Va.
Code § 55-7B-7(a); see also Dawson, 11 F. Supp. 3d at 651.
“The proximate cause of an injury is the last negligent act contributing to the injury and without which
the injury would not have occurred.” Syl. Pt. 8, Judy v.
Grant Cnty. Health Dep’t, 557 S.E.2d 340, 341 (W. Va.
2001) (per curiam) (internal quotation and citation omitted) (quoting Syl. Pt. 5, Sergent v. City of Charleston,

App. 40
549 S.E.2d 311 (W. Va. 2001)). Proximate cause “must
be understood to be that cause which in actual sequence, unbroken by any independent cause, produced
the wrong complained of, without which the wrong
would not have occurred.” Mays v. Chang, 579 S.E.2d
561, 565 (W. Va. 2003) (internal quotation omitted)
(quoting Syl. Pt. 3, Webb v. Sessler, 63 S.E.2d 65 (W. Va.
1950)). A medical expert’s testimony “as to the causal
relation between a given physical condition and the defendant’s negligent act . . . need only state the matter
in terms of a reasonable probability”—not in terms of
a reasonable degree of medical certainty. Hovermale v.
Berkeley Springs Moose Lodge No. 1483, 271 S.E.2d
335, 340 (W. Va. 1980).
Damages may be recovered “for the reasonable
value of . . . medical services rendered” if the plaintiff
can demonstrate the necessity of those services. Jordan v. Bero, 210 S.E.2d 618, 637 (W. Va. 1974). In contrast, damages for pain and suffering are “indefinite
and unliquidated . . . and there is no rule or measure
upon which [they] can be based.” Syl. Pt. 2, Big Lots
Stores, Inc. v. Arbogast, 723 S.E.2d 846 (W. Va. 2012)
(internal quotation omitted) (quoting Syl. Pt. 2, Richmond v. Campbell, 136 S.E.2d 877 (W. Va. 1964)). Future damages are awarded “for, among other things:
(1) [r]esiduals or future effects of an injury which have
reduced the capability of an individual to function as a
whole man; (2) future pain and suffering; (3) loss or impairment of earning capacity; and (4) future medical
expenses.” Syl. Pt. 10, Bero, 210 S.E.2d 618. To receive
an award of future damages, “[t]he permanency or

App. 41
future effect of [the] injury must be proven with reasonable certainty.” Id. at Syl. Pt. 9
A health care provider may not escape a finding of
negligence on the basis of a “mere mistake in judgment.” Syl. Pt. 5, Pleasants v. Alliance Corp., 543
S.E.2d 320 (W. Va. 2000); Syl. Pt. 4, Mays v. Chang, 213
W.Va. 220, 579 S.E.2d 561 (2003). However, a bad result does not necessarily mean that the physician deviated from the standard of care. Schroeder v. Adkins,
141 S.E.2d 352, 357-358 (W. Va. 1965).
“A statute is presumed to operate prospectively
unless the intent that it shall operate retroactively is
clearly expressed by its terms or is necessarily implied
from the language of the statute.” Syl. pt. 4, Arnold v.
Turek, 407 S.E.2d 706 (W. Va. 1991) (quoting Syl. pt. 3,
Shanholtz v. Monongahela Power Co., 270 S.E.2d 178
(W. Va. 1980) (quoting Syl. pt. 2, State ex rel. Manchin
v. Lively, 295 S.E.2d 912 (W. Va. 1982))). In this case,
the MPLA prior to the 2016 amendment is the controlling version of the statute.
V.

CONCLUSION

Accordingly, this Court finds that the services rendered by Dr. Hardy to A.F. fell below the applicable standard of care and did in fact cause A.F. to sustain the
damages alleged by the Plaintiffs. Specifically, Dr. Hardy
recognized that A.F. needed to be transferred to WMC’s
NICU shortly after A.F. was born. A.F.’s condition did
not improve, and BMC did not have the requisite
equipment or staff to care for a child in her condition.

App. 42
The Court finds Dr. Partridge’s testimony most
credible with regard to the appropriate standard of
care, A.F.’s medical condition shortly after birth and
the level of care A.F. required. Dr. Partridge’s testimony was competent and candid. The Court finds that,
most conservatively, A.F. was in Dr. Hardy’s care until
approximately 2:45 p.m. the day she was born.2 During
that time, A.F. was in respiratory distress, had low glucose levels, exhibited retracting, grunting and flaring,
and never significantly improved.
Although the Government argues that Dr. Hardy
should be absolved from any liability because she transferred care to Dr. Purohit, a neonatologist, the Court
finds this argument to be without merit under the circumstances.
Indeed, a paramedic would not escape his obligation by transferring care to a surgeon at the site of a
car accident on the interstate; the surgeon would be ill
equipped outside a hospital operating room without
the proper equipment, environ, tools, and staff to carry
out his scope of practice. Although he would have more
education and training than a paramedic, training
and knowledge alone are ill-suited replacements for
2

Although the Court is inclined to find that Dr. Hardy’s care
for A.F. was not terminated precisely at 2:45 p.m., it is not necessary for the Court to go that far in its analysis. Indeed, there is
enough evidence before this Court to conclude Dr. Hardy, perhaps
inadvertently because she was unfamiliar with BMC’s policies,
never properly effectuated a transfer of care to Dr. Purohit. Regardless, the Court finds that the evidence established at trial
that Dr. Hardy was negligent prior to the Government’s proposed
transfer to Dr. Purohit.

App. 43
scalpels, forceps, retractors, tables, monitors, extra personnel and a sterile environment. The same is true
here: Dr. Purohit, regardless of his training and education, was without a NICU. Thus, at a minimum, he
lacked the appropriate equipment, specialized staff or
necessary protocols to adequately assess and treat a
baby who needed intensive care.
Dr. Hardy should have transferred A.F. to WMC
the same afternoon A.F. was born, and she believed as
much herself. Dr. Hardy allowed a nurse manager to
persuade her not to transfer A.F. to another hospital.
As a result, A.F. continued to struggle breathing, became cyanotic, and developed cerebral palsy. It is clear
to this Court, and it so finds that the standard of care
required that A.F. be transferred to a NICU and receive the level of care that is only available in a NICU,
such as the one at WMC.
Therefore, because A.F. suffered irreversible brain
damage as a result of the improper treatment she received and Dr. Hardy’s failure to meet the appropriate
standard of care, the Court RULES IN FAVOR of the
PLAINTIFFS in the following amounts:

3

Kayla Butts for
past medical bills

$99,246.983

Kayla Butts for past
services (4 years)

$125,232.00

The parties have previously stipulated to this amount. See
ECF No. 171.

App. 44
A.F. for future lost
earning capacity

$1,631,125.00

A.F. for future
healthcare costs

$4,607,834.00

A.F. for non-economic
Damages

$673,453.49

TOTALING:

$7,136,891.47

Pursuant to West Virginia’s Medical Professional
Liability Act, W. Va. Code § 557B-9a, the Court shall
hold a post-verdict, pre-judgment collateral source
hearing on February 6, 2018, at 9:00 a.m.
The Clerk of Court is DIRECTED to transmit
copies of this Order to all counsel of record herein.
DATED: January 17, 2018
/s/ Gina M. Groh
GINA M. GROH
CHIEF UNITED STATES
DISTRICT JUDGE

App. 45
FILED: September 9, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-----------------------------------------------------------------------

No. 18-1693
(3:16-cv-00053-GMG-MJA)
-----------------------------------------------------------------------

KAYLA BUTTS, Individually and on
behalf of her daughter A.F., a minor
Plaintiff - Appellee
v.
THE UNITED STATES OF AMERICA
Defendant - Appellant
and
BERKELEY MEDICAL CENTER; WEST VIRGINIA
UNIVERSITY HOSPITAL, INC.; SHENANDOAH
WOMEN’S HEALTH CENTER; SHENANDOAH
COMMUNITY HEALTH CENTER; SHENANDOAH
MIDWIVES; AVINASH PUROHIT, M.D.; TRACY
SWALM, CNM; SARA SPURGEON, R.N.; SHELLY
PALKOVIC, R.N.; REBECCA PFENDER, CNM;
SARAH HARDY, M.D.; SONYA JUSTICE, R.N.
Defendants
-----------------------------------------------------------------------

ORDER
-----------------------------------------------------------------------

The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under

App. 46
Fed. R. App. P. 35 on the petition for rehearing
en banc.
Entered at the direction of the panel: Judge Harris, Judge Richardson, and Judge Quattlebaum.
For the Court
/s/ Patricia S. Connor, Clerk

